The U.S. International Trade Commission is an independent, nonpartisan, quasi-judicial federal agency
that provides trade expertise to both the legislative and executive branches of government, determines the
impact of imports on U.S. industries, and directs actions against certain unfair trade practices, such as
patent, trademark, and copyright infringement. USITC analysts and economists investigate and publish
reports on U.S. industries and the global trends that affect them. The agency also maintains and publishes
the Harmonized Tariff Schedule of the United States.




                                             Commissioners
                                        Deanna Tanner Okun, Chairman
                                        Irving A. Williamson, Vice Chairman
                                        Daniel R. Pearson
                                        Shara L. Aranoff
                                        Dean A. Pinkert
                                        David S. Johanson
OFFICE OF INSPECTOR GENERAL




         UNITED STATES INTERNATIONAL TRADE COMMISSION

                                    WASHINGTON, DC 20436


January 23, 2012                                                          OIG-KK-001

Chairman Okun:

This memorandum transmits the Office of Inspector General’s final report, Audit of the Title VII
Preliminary Investigation Process, OIG-AR-12-06. In finalizing the report, we analyzed
management’s comments on our draft report and have included those comments in their entirety
as Appendix A.

This report contains two recommendations to address the areas for improvement identified in the
report. In the next 30 days, please provide me with your management decisions describing the
specific actions that you will take to implement the recommendations.

Thank you for the courtesies extended to my staff during this review.




Philip M. Heneghan
Inspector General
                          U.S. International Trade Commission
                                      Audit Report


                                        Table of Contents
Results of Audit ............................................................................................. 1
   Improvement Area 1: Eliminate Redundant Data Entry ................................................ 2

   Improvement Area 2: Reduce the Use of Hard Copy Documents ................................. 3

Management Comments and Our Analysis ............................................... 4

Objective, Scope, and Methodology ............................................................ 4

Appendix A: Management Comments on Draft Report ......................... A




OIG-AR-12-06                                         -i-
                     U.S. International Trade Commission
                                  Audit Report


                                  Results of Audit
The purpose of this audit was to answer the question:

       Is the Title VII preliminary investigation process clear and transparent?

Yes, the preliminary investigation process is both clear and transparent.

For purposes of this audit, we defined the terms “clear” and “transparent” as follows:

   x   Clear: A process that is documented in a manner that can be easily understood.
   x   Transparent: Procedural information on how to participate in the preliminary
       investigation process is readily available to the public in an open and accessible
       manner.

We found that an explanation of the preliminary investigative process is clearly described
and posted on the Commission web site. We also noted:

   x   Commission staff was consistent in how they described the preliminary
       investigation process.
   x   The system process maps that depict the preliminary investigation roles and
       processes was consistent with the information provided by the interviewees.
   x   The system process maps were consistent with the Antidumping and
       Countervailing Handbook and the Commission’s Rules of Practice and
       Procedure.
   x   The preliminary investigation staff conference proceeded exactly as described in
       the system process map, Antidumping and Countervailing Handbook, and Federal
       Register notice.
   x   External parties surveyed indicated they use the Commission’s website to obtain
       information on the preliminary investigation process.
   x   Survey results unanimously gave the highest scores when responding to
       satisfaction levels on how accessible information is; and the quality of the
       information provided on the preliminary investigation process.

While we found the Title VII preliminary investigation process to be clear and
transparent, the review did reveal two areas for improvement eliminating redundant data
entry and reducing the use of hard copy documents. Those improvement areas and
recommendations are described in detail in this report.




OIG-AR-12-06                               -1-
                      U.S. International Trade Commission
                                   Audit Report


               Improvement Areas & Recommendations

                                 Improvement Area 1:
                            Eliminate Redundant Data Entry



The Commission should have a single application for the collection and maintenance of
questionnaire data that allows for data extraction by all team members for analytical
purposes.

Currently, questionnaires are placed on a shared directory for team members to access.
Team members access the questionnaires to obtain the data applicable to their section of
the report. Individuals then have wide latitude to choose how they go through the process
of extracting the data. We found that the tools, software applications, templates, and
methods of extracting and compiling the data from the questionnaire varied by quantity
of responses, the team member’s role, and who was performing the work. For instance:

   x   Statisticians manually enter all the financial and trade related data into Lotus.
   x   Auditors manually enter all the financial data into Lotus.
   x   Auditors sometimes use the trade related data and will manually enter it into their
       working documents.
   x   Economists used various methods of entering and compiling the pricing
       information ranging from manually entering data to using an automated data
       extraction macro in Excel.

There was also a variety of software applications used among the team members. Some
team members prefer to enter data into templates that have been developed and matured
over the past 15 years. While others have been individually developing tools to begin
automating some of the processes, and the results are not always effective or cost
efficient. For example, the data extraction macro used by the economists, has to be
modified for every investigation. This upfront cost may outweigh the benefits of
electronic extraction if the number of responses is low or if only part of the questionnaire
is extracted electronically. Because the use of the extraction tool is not part of the
standard process, some individuals may choose to continue performing manual data
entry, even in cases where it would be beneficial. This results in inconsistent use of tools
across teams and team members.

Further, team members are spending time and energy performing redundant data entry
and data reconciliation. During the interview process, some team members stated that the
manually entered data are checked and re-checked for accuracy. Additionally, since
many of the questionnaires are revised and resubmitted during the process, there is also


OIG-AR-12-06                                -2-
                      U.S. International Trade Commission
                                   Audit Report

risk that all team members may not have the most current data. The multiple data entry
methods, software applications, and sources of data require the Office of Investigations to
expend a substantial amount of man hours to performing quality control data checks to
ensure the integrity the data.

The Office of Investigations does not have a single authoritative source for questionnaire
data to be entered, updated, and stored, that allows automated extraction of the same data
by all members of the team. By implementing, a single authoritative source for
questionnaire data, the Office of Investigations can eliminate time wasted performing the
duplicative data entry and reconciling numbers. Additionally, automated data extraction
provides an opportunity to standardize the tools and software applications used by the
team members.

Recommendation 1: We recommend that the Office of Investigations implement a
single authoritative source for quantitative questionnaire trade, financial, and pricing data
that allows automated extraction by all members of the investigation team.



                                 Improvement Area 2:
                        Reduce the Use of Hard Copy Documents


Executive Order 13589, directs agencies to act in a fiscally responsible manner, cut
waste, promote efficient spending, and minimize their administrative costs. Specifically,
the Executive Order requests agencies to “limit the printing of hard copy documents and
to presume that information should be provided in an electronic form, whenever
practicable, permitted by law, and consistent with applicable records retention
requirements.”

In our review of the system map for the preliminary investigation process, we identified
several instances were hard copy documents were produced, received or distributed
within the Commission. For example, sub-process S-10, which describes the distribution
of the preliminary investigation questionnaires, identifies the following tasks:

   x   Create Federal Express Mailing List;
   x   Load file into Federal Express Computer;
   x   Print Labels;
   x   Print Questionnaires;
   x   Label envelopes;
   x   Stuff envelopes; and
   x   Place envelopes in Federal Express box.



OIG-AR-12-06                                -3-
                     U.S. International Trade Commission
                                  Audit Report

Another example, found in one of the procedural documents we reviewed titled,
“DISTRIBUTION OF REPORTS” shows 25 hard copy documents being distributed to
various offices, with specific formatting and delivery requirements.

While we found the Office of Investigations has made some progress in reducing hard
copy documents, we believe they could do better. For example, the Commission recently
adopted new confidential e-filing procedures; however, parties are still required to file
numerous paper copies in addition to the electronically filed submission. Additionally,
while some staff have begun using e-mail as a means of sending questionnaires to
companies, Federal Express delivery is still used in a large number of cases and is the
documented standard procedure.

The Office of Investigations continues to use processes developed before technology
provided more efficient ways to use and exchange information. As a result, they may be
unnecessarily spending money on printing and postage when the information could be
sent electronically.

The recent undertaking of the Office of Investigations to develop the system maps
provides an opportunity to review the process and identify areas where cost savings can
be achieved by eliminating hard copy documents.

Recommendation 2: We recommend the Office of Investigations review the
preliminary investigation process to determine if there are any instances to eliminate hard
copy documents.



              Management Comments and Our Analysis

On January 17, 2012, Chairman Deanna Tanner Okun provided management comments
on the draft report. She concurred with findings and is dedicated to ensuring that the
preliminary investigation process is clear and transparent.



                    Objective, Scope, and Methodology
Objective: The objective of this audit was to determine if the preliminary investigation
process is clear and transparent. For purposes of this audit, we defined the terms “clear”
and “transparent” as follows:

   1) Clear process: one that documents the preliminary investigation process in a
      manner that can be easily understood. (Internal)



OIG-AR-12-06                               -4-
                     U.S. International Trade Commission
                                  Audit Report

   2) Transparent process: Information regarding how to participate in the preliminary
      investigation process is readily available to the public in an open and accessible
      manner. (External)

Scope: During this audit, we focused on a holistic view of the preliminary investigation
process and did not review the individual analytical processes performed by each member
of the investigative team. The audit was based on the documented processes in place as
of June 16, 2011 and system process maps as of October 3, 2011. The parties surveyed
had all participated in a preliminary investigation that ended in 2011 and included
representatives for petitioners and respondents.

Methodology:

   x   Performed a walk-through of two investigations with the lead investigator and the
       Director of the Office of Investigations.
   x   Interviewed the members of investigation team from those investigations;
   x   Reviewed internal documents, checklists, templates, and handbooks.
   x   Reviewed information available on the Commission web site,
   x   Reviewed the system process maps.

To validate the information, we then
   x Obtained access to EDIS to verify documentation and case history.
   x Observed a preliminary investigation staff Conference.
   x Surveyed individuals who have participated as counsel to parties in the
       preliminary investigation process.

Even though the attorneys surveyed did not statistically represent the population, they did
provide some insight that supported the results of the internal review. These attorneys for
both the petitioners and respondents unanimously gave the highest rating for 1) how well
the Commission provides access to information on the preliminary investigation process,
and 2) and how satisfied they were with the quality of the content of information
provided by the Commission. The counsel we spoke to had participated in at least four
preliminary investigations at the Commission, and therefore this sample may not
represent the view of a first time petitioner or respondent party.


We conducted this performance audit in accordance with Generally Accepted
Government Auditing Standards (GAGAS). Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.



OIG-AR-12-06                               -5-
               U.S. International Trade Commission
                            Appendix A


    Appendix A: Management Comments on Draft Report




OIG-AR-12-06                   -A-
“Thacher’s Calculating Instrument” developed by Edwin Thacher in the late 1870s. It is a cylindrical, rotating slide
rule able to quickly perform complex mathematical calculations involving roots and powers quickly. The instrument
was used by architects, engineers, and actuaries as a measuring device.
